4’

ArppenAlX 1.
fdavj 2„} 'ZOlR Judcj merit"

\8

United States Court of Appeals
For the First Circuit
No. 18-1705
LISA BIRON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge,
Torruella and Kayatta, Circuit Judges.

JUDGMENT
Entered: May 2, 2019
Having reviewed the record in this case, we affirm the judgment of the district court.
We note only the following. Insofar as appellant's appeal is directed at her underlying
criminal conviction, it is a successive habeas petition and is thus barred absent prior authorization
from this court. See Rod well v. Pepe, 324 F.3d 66, 67 (1st Cir. 2003) (Rule 60(b) motion should
be treated as successive habeas petition if factual predicate constitutes direct challenge to the
constitutionality of the underlying conviction). Insofar as she is challenging the habeas court's
denial of relief, her claim fails because she did not appeal that judgment and she "may not use Rule
60(b) as a substitute for a timely appeal." Giroux v. Fed. Nat'l Mortg. Ass'n, 810 F.3d 103, 108
(1st Cir. 2016) (quoting Oieda-Toro v. Rivera-Mendez, 853 F.2d 25, 28-29 (1st Cir.1988)).
Affirmed. 1st Cir. Loc. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk

cc:

Lisa Biron, John P. Kacavas, Donald A. Feith, Seth R. Aframe, Helen White Fitzgibbon

'3

I*

■*.

c'

Appendix 'L
Ntai/ember \Zs2x>Z0 O^den

2_Q

United States Court of Appeals
For the First Circuit
No. 18-1705
LISA BIRON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge.
Lynch, Thompson, Kayatta
and Barron, Circuit Judges.
ORDER OF COURT
Entered: November 12, 2020
The petition for rehearing having been denied by the panel of judges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and petition for rehearing en banc be denied.

. By the Court:
Maria R. Hamilton, Clerk

cc:

Lisa Biron
Donald A. Feith
Seth R. Aframe
Helen White Fitzgibbon

2_l

<•

%) '*

4V

\

l iVk IS H-S.C-2Oi-H, IISH L 1*155

ITL

V p

§ 2244. Finality of determination
(a) No circuit or district judge shall be required to entertain an application for a writ of habeas corpus
to inquire into the detention of a person pursuant to a judgment of a court of the United States if it
appears that the legality of such detention has been determined by a judge or court of the United States
on a prior application for a writ of habeas corpus, except as provided in section 2255 [28 USCS § 2255].

(b) (1) A claim presented in a second or successive habeas corpus application under section 2254
[28 USCS § 2254] that was presented in a prior application shall be dismissed.
(2) A claim presented in a second or successive habeas corpus application under section 2254
[28 USCS § 2254] that was not presented in a prior application shall be dismissed unless—
(A) the applicant shows that the claim relies on a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously unavailable; or

(B) (i) the factual predicate for the claim could not have been discovered previously
through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the evidence
as. a whole, would be sufficient to establish by clear and convincing evidence that, but for constitutional
error, no reasonable factfinder would have found the applicant guilty of the underlying offense.

(3) (A) Before a second or successive application permitted by this section is filed in the district
court, the applicant shall move in the appropriate court of appeals for an order authorizing the district
court to consider the application.
(B) A motion in the court of appeals for an order authorizing the district court to consider
a second or successive application shall be determined by a three-judge panel of the court of appeals.
(C) The court of appeals may authorize the filing of a second or successive application
only if it determines that the application makes a prima facie showing that the application satisfies the
requirements of this subsection.
(D) The court of appeals shall grant or deny the authorization to file a second or
successive application not later than 30 days after the filing of the motion.
(E) The grant or denial of an authorization by a court of appeals to file a second or
successive application shall not be appealable and shall not be the subject of a petition for rehearing or
for a writ of certiorari.

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

2.3

127/5049

Ic

-V’ *■

(4) A district court shall dismiss any claim presented in a second or successive application that
the court of appeals has authorized to be filed unless the applicant shows that the claim satisfies the
requirements of this section.

uses

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement. .

2-4

%

§ 2254. State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment of a
State court only on the ground that he is in custody in violation of the Constitution or laws or treaties of
the United States.

(b) (1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of the State; or

(B) (i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights
of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be estopped from
reliance upon the requirement unless the State, through counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of the
State, within the meaning of this section, if he has the right under the law of the State to raise, by any
available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was adjudicated on the
merits in State court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.

(e) (1) In a proceeding instituted by an application for a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court, a determination of a factual issue made by a State court shall
be presumed to be correct. The applicant shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

2_S

12775049

V

%, -

(2) If the applicant has failed to develop the factual basis of a claim in State court proceedings,
the court shall not hold an evidentiary hearing on the claim unless the applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through
the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing,
evidence that but for constitutional error, no reasonable factfinder would have found the applicant guilty
of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State court proceeding
to support the State court's determination of a factual issue made therein, the applicant, if able, shall
produce that part of the record pertinent to a determination of the sufficiency of the evidence to support
such determination. If the applicant, because of indigency or other reason is unable to produce such part
of the record, then the State shall produce such part of the record and the Federal court shall direct the
State to do so by order directed to an appropriate State official. If the State cannot provide such pertinent
part of the record, then the court shall determine under the existing facts and circumstances what weight
shall be given to the State court's factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such court to be a
true and correct copy of a finding, judicial opinion, or other reliable written indicia showing such a factual
determination by.the State court shall be admissible in the Federal court proceeding.
(h) Except as provided in section 408 of the Controlled Substance Acts [21 USCS § 848], in all
proceedings brought under this section, and any subsequent proceedings on review, the court may
appoint counsel for an applicant who is or becomes financially unable to afford counsel, except as
provided by a rule promulgated by the Supreme Court pursuant to statutory authority. Appointment of
counsel under this section shall be governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a proceeding arising under section 2254 [28 USCS §
2254],

HISTORY:
Act June 25, 1948, ch 646, 62 Stat. 967; Nov. 2, 1966, P. L. 89-711, § 2, 80 Stat. 1105; April 24,
1996, P. L. 104-132, Title I, §104, 110 Stat. 1218.

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

1U

12775049

§ 2255. Federal custody; remedies on motion attacking sentence

the
the

court which imposed the sentence to vacate, set aside or correct the sentence.

such motion without requiring the production of the prisoner
(c) A court may entertain and determine
at the hearing.
,d) An appeal may be taken to the court of appeals from the order entered on the motion as from the
final judgment on application for a writ of habeas corpus.

-his
detention.
(f) A 1-year period of limitation shall apply to a
run from the latest of—

motion under this section. The limitation period shall

(1) the date on which the judgment of conviction becomes final;

airs asaasi

making a motion by such governmental action;

, .as=sa ZS.T--

if that
cases on

collateral review; or
which the facts supporting the claim or claims presented could have been
(4) the date on
discovered through the exercise of due diligence.

l

uses

f the LexisNexis Group. All rights reserved. Use of this produet is subject to the restrictions
© 2021 Matthew Bender & Company, Inc., a member o
and terms and conditions of the Matthew Bender Master Agreement.

n

i ?n 9049

%

♦

*■'

appoint counsel, except as provided by a rule promulgated by the Supreme Court pursuant to statutory
authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 [28 USCS § 2244]
by a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in. light of the evidence as a whole,
would be sufficient to establish by clear and convincing evidence that no reasonable factfinder would
have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

HISTORY;
Act June 25, 1948, ch 646, 62 Stat. 967; May 24, 1949, ch 139, § 114, 63 Stat. 105; April 24,
1996, P. L. 104-132, Title I, § 105, 110 Stat. 1220; Jan. 7, 2008, P. L. 110-177, Title V, § 511,
121 Stat. 2545.

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

